^0=6718
FILED
OCT 0 1 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

IN THE

SUPREME COURT OF THE UNITED STATES

Jason Johnson
(Your Name)

— PETITIONER

vs.
The State of California

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

The Supreme Court of California
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Jason Johnson G-00700
(Your Name)
P.O. Box 921
(Address)
Imperial, Ca. 92251
(City, State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED
1. Under the "newly discovered evidence rule" does not evidence discovered after conviction, such as
evidence the movant could not have possibly discovered before conviction constitute "Newly discovered
evidence"?
2. Should a Court grant relief according to the newly discovered rule, upon nothing more than newly
discovered evidence?
3. Is it proper for a court to hold a movant responsible for the respondants failures to investigate the
declarant of the newly discovered evidence?
4. Was it lawful to deny relief upon "no prima facie case" after ordering informal response from
respondants?
5. Is it lawful for a Court to second guess the evidence not addressed by respondants, after responses
were offered?
6. Upon the presentation of newly discovered consistent with the rule, should not a new trial be ordered
by the Court hearing the matter?

LIST OF PARTIES

DO All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
Decision of the California Supreme Court
APPENDIX B
Decision of the California Court of Appeal
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED
CASES
California Constitution Article VI Sec.6
United States Constitution Amendment 6 & 14

STATUTES AND RULES
Cal. Penal Code Sec. 1473(b)(3)(A); 1382(a)

OTHER

PAGE NUMBER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
£><] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[XI is unpublished.
The opinion of the Court of Appeal
appears at Appendix B
to the petition and is
; or,
[ ] reported at ____
[ ] has been designated for publication but is not yet reported; or,
£X1 is unpublished.
1.

court

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_______________________
[ ] No petition for rehearing was timely filed in my case.
t ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

IX] For cases from state courts:
The date on which the highest state court decided my case was Q4/23/2Q
A copy of that decision appears at Appendix A_____
[ ] A timely petition for rehearing was thereafter denied on the following date:
________________ :______ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date)in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
USCA6& 14
Cal. Const. Art I, Sec.7

STATEMENT OF THE CASE
On October 11, 2007, Mr, Johnson was convicted of Cal. Penal Code sec.289(a)(1); PC 459; PC
220; PC 243.4(a); PC 245. The jury also found true allegations pursuant to PC 667(b); PC 667(c).
The trial court sentenced Mr. Johnson to 55 years to life.

REASONS FOR GRANTING THE PETITION
Introduction
Petitioner a California state prisoner being convicted for sexual offense in the the county of
Riverside, October 11, 2011, and being sentenced to a term of 55 years to life for these crimes on
December 7, 2007 (Exhibit A) after some 16 years, being contacted by a friend and sharing her
amazments with regards to the conviction, in that as she learned of the time of the offenses, knew
that he could not have possibly been the perpetrator of these offenses , made an offer to come
forward under penalty of perjury to tell her side of the story, as to why petitioners conviction should be
overturned. (Exhibit B) where the times givin therein conflicts with the times givin byb respondents
with regards to the times the matter occurred.
Because of this newly discovered evidence, petitioner immediately filed a petition for writ of
habeas corpus corpus in the lower court requesting relief based upon newly discovered evidence.
The court ordered respondants to formally respond to which they did. (Exhibit C). Petitioner timely
replied (Exhibit D). On 04/23/20 the lower court denied relief, stating "No prima facie case made".
(Exhibit E). Petitioner filed a new petition of the same in the 4th Appellate District Court of Appeal, to
which a one line denial was issued. A timely petition was then filed in the California Supreme Court
who later denied without comment.
Petitioner now brings the instant petition for writ of certiorari.

REASON WHY CERTIORARI SHOULD BE GRANTED
The writ should be grantedto establish clearly the rights of the petitioner according to the
regulations established with regards to newly discovered evidence.

CONCLUSION

The petition for a writ of certiorari should be granted.

r
Respectfully

12/12/2020

~JaSon Johnson

Date; 12/03/2020

